WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-95

Carolyn Hicks-Washington

v.

(Petitioner)

Housing Authority of City of Fort Lauderdale, FL
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

111 Please enter my appearance as Counsel of Record for all respondents.
❑ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

111 I am a member of the Bar of the Supreme Court of the United States.
❑ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.

s/ David B. Shelton

Signature

August 26, 2020
David B. Shelton
(Type or print) Name
Date•

111 Mr.

Firm

Rumberger Kirk

Address

❑ Ms.

❑ Mrs.

❑ Miss

300 S. Orange Avenue, Suite 1400

City & State

Orlando, FL

Phone (407)

872-7300

Zip
Email

32801

dshelton@rumberger.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Carolyn Hicks-Washington, pro se Petitioner

